 AMERICAN RECOVERY & REINVESTMENT ACT OF 2009


Assessment of Project Risks Associated with Key Engineering Projects


                          Report No. 912-2010

                             May 14, 2010




                    Audit Report Issued By:

    NATIONAL RAILROAD PASSENGER CORPORATION
          OFFICE OF INSPECTOR GENERAL
                 10 G STREET N.E.
              WASHINGTON D.C. 20002
                                 EXECUTIVE SUMMARY


                             On February 17, 2009, the President signed the American Recovery and
    WHY WE DID               Reinvestment Act (ARRA). The Act included $1.3 billion in capital grants
      THIS RISK              to fund a variety of projects to help Amtrak improve its infrastructure and
       REVIEW                security posture. The Act also required the Secretary of Transportation to
  This review was            take measures to ensure that projects funded by the Act would be completed
  conducted to:              within two years of enactment (February 17, 2011).

   Assess the               In March, 2009, the Federal Railroad Administration (FRA) provided a $1.3
    inherent project         billion grant establishing requirements for Amtrak to complete the
    risks on high-           infrastructure and security projects within the terms of the Act. The grant
    investment ARRA          agreement requires Amtrak to complete all ARRA-funded projects no later
    Engineering              than February 17, 2011 and to continuously take actions to ensure projects
    projects.                are completed by February 17, 2011. Amtrak is allowed to request a waiver
                             for projects that cannot be completed by February 17, 2011, but must
   Review the               demonstrate that it has taken “extraordinary” measures to complete the
    measures being           project on time.
    taken by Amtrak
    to keep the project                                     As part of our obligations under ARRA, the
    risks within               The February 17,            OIG assessed the risks associated with nine
    manageable                 2011 completion             major ARRA-funded projects being managed
    levels.                    deadline has resulted       by Amtrak’s Engineering Department and the
                               in further elevation of     measures being taken to manage those risks.
                               some project risks.         These projects have a budget value totaling
                                                           $277 million. The methodology for conducting
the risk assessment involved defining risk areas, reviewing project documents to determine the extent to
which risks had been identified and mitigated, and holding extensive discussions with responsible project
managers and their subject matter experts to identify and assess risks.
A total of 62 risk elements within 10 general risk categories were reviewed for each of the nine projects.
The categories included risks associated with areas such as project finances, acquisition of materials and
equipment, the project environment, and schedule constraints. Based on the review of documents and
discussions with Engineering Department project representatives, each of the 62 risk elements was given
a risk score of 1 to 5, denoting the level of risk that exists against each element on the project. A score of
1 represented a low risk for that element and a score of 5 represented a high risk. Any risk element
receiving a score of 3.5 or higher was considered a “watch item” whose risk should be actively managed.

Of a total 558 risks elements examined (62 elements for each of 9 projects), we identified 57 as having a
risk level of 3.5 or more resulting in a watch item. Three projects (Niantic River Bridge Replacement,
Positive Train Control – NEC, and Positive Train Control – Michigan Line) had 10 watch items each.

In performing this assessment, it became clear that a significant number of risk items were either directly
or indirectly attributed to the deadline of February 17, 2011. We therefore expanded our scope to also
assess the impact of this deadline on Amtrak’s ARRA program.

The key risk areas across projects were 1) the ability to acquire materials and equipment in time to
complete the project before the grant deadline of February 17, 2011; 2) environmental concerns; and 3)


                                                      i
schedule concerns. In total, of the risk categories evaluated, the three identified above had a total of 20
watch items spread among seven projects.

In many cases, the project managers were able to identify actions to mitigate risks. Specific mitigation
actions are described in this report. The Amtrak project managers appear to understand the measures that
must be used to mitigate the associated project risks and have begun to implement the majority of them.
However, Amtrak managers and executives are not in a position to mitigate the most significant risk, the
grant requirement that Amtrak take “extraordinary” measures in order to justify a request for relief from
the project deadline. This requirement may have the unintended consequence of encouraging Amtrak to
take actions that increase the risk of waste and inefficiency or even to take shortcuts that could increase
the risk that the project will not perform as well as expected and will not provide the benefits expected.

Amtrak executives, including the President and CEO, are committed to ensuring that funds are utilized
effectively and represent an appropriate use of taxpayer funds. They are in the process of making
decisions about how to balance the need and desire to implement these projects against the need to spend
taxpayer funds efficiently and effectively. However, as projects face slippages that threaten the
completion date, which is not unusual for large construction projects, Amtrak executives are faced with
either cancelling the project and identifying a substitute project that can be completed in time or taking
extraordinary actions to meet the completion date. Identifying substitute projects at this point in time also
increases risks and might result in funding lower priority projects that will bring fewer benefits than the
originally selected project. Extraordinary actions that have been proposed by Amtrak include the addition
of second or even third shifts on construction projects, reducing the scope of projects to accomplish less
than originally planned, and dividing projects into two phases, one funded from ARRA funds and the
second, post February 17, 2011, using Amtrak general capital funds.

The Law requires the Secretary of Transportation and Amtrak officials to take measures to ensure projects
are completed by February 17, 2011. In fact, when Amtrak awarded the contracts, it had taken measures
to complete the projects on time—those measures were reflected in contract completion dates that met the
requirement. Subsequent events such as late material deliveries and ongoing negotiations with host
railroads are now leading to delays that will require further measures, and perhaps extraordinary measures
to meet the date.

The OIG agrees that reasonable measures should be taken to complete projects within the grant deadline,
provided that completion is achievable through the utilization of methods and procedures normally used
in the industry. Reasonable measures are those practices that one would expect to use under normal
operating conditions. They follow due process in each step along the way and due diligence with regard
to reasonable follow up and care that needs to be exercised. In this case that would include items such as
normal shifts with a manageable amount of overtime, quantities of track outages that would minimize
impacts to on-time performance, a signed contract that respects the grant provisions, and schedule
contingencies that allow unplanned time for weather or other unforeseen circumstances.

In fact, the grant agreement lists the types of measures Amtrak should take, and generally those measures
are consistent with sound business practices. However, the term extraordinary measure is not defined in
the grant agreement. Because the grant defines measures in a manner that is consistent with prudent
business practices, arguably, extraordinary measures must entail additional actions that would
significantly impact productivity, increase the potential for waste or inefficiency, negatively impact the
quality of the final products, or extraordinarily impact the smooth operation of the railroad.

Because the grant agreement is driving these “extraordinary” measures rather than the Law, we are
recommending that Amtrak apply to the FRA to amend the grant provisions. The grant provisions should



                                                     ii
ensure a balance between spending taxpayer funds in a timely manner and achieving project objectives,
without actions that could increase the potential for waste or inefficiencies. We also recommend that
Amtrak apply to the FRA for a grant waiver in instances where reasonable measures have failed to bring
the project within the grant deadline.




                                                 iii
               TABLE OF CONTENTS


Background ……………………………………………………. 1


Analysis of Risk Assessment ………………………………….. 2


Conclusions …………………………………………………… 17


Recommendations …………………………………………….. 18



Management’s Comments and OIG Response ……………..… 19



Exhibit A – Overview of the Engineering
& Construction Process ………………………………………. 20



Exhibit B – Scope & Methodology …………………………... 21



Appendix ……………………………………………………... 23
                                         BACKGROUND
On February 17, 2009, the President signed the American Recovery and Reinvestment Act of 2009
(Recovery Act) into law in response to the economic crisis facing the nation. As part of this act, the
National Railroad Passenger Corporation (Amtrak) received $1.3 billion through an FRA grant to fund
various infrastructure and security initiatives. The Recovery Act calls for extraordinary levels of
spending over a very short period of time. Because of the increased potential for waste, fraud and abuse,
Congress has tasked many OIG’s, including Amtrak’s, with special oversight responsibilities for
programs funded through the Recovery Act. Our oversight responsibilities include assessments of
Amtrak’s ARRA programs before, during, and after completion.

The Federal Railroad Administration has been tasked to control and administer the grant. According to
Amtrak's grant agreement with the FRA, the projects funded under the grant must be completed no later
than February 17th, 2011 and on an exceptional basis only, Amtrak may apply for an extension on
specific projects (for which they must furnish proof that they've taken all necessary extraordinary
measures to meet this deadline).

The objective of this audit was to assess 1) the inherent risks associated with nine major ARRA-funded
projects being managed by Amtrak’s engineering department and 2) measures taken by Amtrak to keep
project risks within manageable levels. These projects have a combined budget value totaling $277
million.

This report also lays the foundation to ensure that project risks:

    1. Are being taken into account early on in the project / program life cycle, in order to develop an
       effective risk mitigation plan.

    2. Are being actively managed as a means of maintaining adequate control over the project.

During the course of our audit we expanded the scope beyond the nine engineering projects because it
was clear to us that the February 17, 2011 contract completion date had company-wide implications. We
met with senior Amtrak officials to discuss actions taken to meet that date. We also attended Amtrak’s
monthly ARRA status reviews in which all ARRA projects’ estimated costs, actual costs, estimated
completion dates, and changes in the projects’ scope/objectives were reviewed.

During April, 2009, the Office of Management and Budget requested that the OIG provide a preliminary
assessment identifying which ARRA projects or programs were considered to be high risk. The resulting
report emphasized that the assessment was preliminary, and that it would be followed up by a more
detailed program risk analysis (this report) on each of the key ARRA programs. The Engineering
programs identified as potentially high risk and subject to further follow-up were:



                 Project Name                                        Project Number

    1. Niantic River – Bridge Replacement                            PRJ29116002
    2. Positive Train Control (Michigan Line)                        PRJ29112131
    3. Positive Train Control (NEC)                                  PRJ29112113


                                                   Page 1
    4.   Lamokin – Frequency Converter Replacement                PRJ29116023
    5.   Construct Maintenance Facility in Los Angeles, CA        PRJ29116045
    6.   NY Fire Standpipe System                                 PRJ29112114
    7.   Construct Maintenance Facility in Hialeah FL             PRJ29110037
    8.   Improvements to Platform Lighting in NEC Stations        PRJ29112117
    9.   Emergency Backup Power – Stations                        PRJ29112118

The above list of projects comprises a total budget of $277 million, representing approximately:

- 22% of Amtrak's total stimulus grant
- One-third of the total stimulus funding earmarked for non-security infrastructure initiatives
- Half of the total stimulus funding that was allocated by Amtrak toward Engineering / Construction
  initiatives.

For the majority of construction projects, a pre-defined sequence of events (described in Exhibit A) in the
Engineering / Construction life cycle normally takes place. These events include a series of checks and
balances that bring discipline to the process and assist in the management and control of the more
complex projects or programs.



                        ANALYSIS OF RISK ASSESSMENT

Summary of Results

Of the nine projects that were evaluated for risk, five contained a significant number of high-risk areas
that if not managed effectively would likely compromise the project’s success. Among others, these
projects included the Niantic River Bridge project budgeted at $104 million and two projects involving
Positive Train Control (PTC) with a combined budget of $60 million. Of the ten risk categories (see
Exhibit B) that were examined across projects, risk associated with Acquisition, Environment, Schedule
Slippage, and Technology were identified as areas of the highest concern. In general the project / program
managers were quick to recognize the high-risk items and put forward tactics that they believed would
adequately manage the associated risk. The following summarizes the key risk areas that were identified
during this review:

Acquisition Risks - The hard deadline of February 17, 2011 has stretched the capabilities of Amtrak's
procurement infrastructure. A number of project leads expressed concern that materials and equipment
would not be received in time to complete the projects within the deadline.

Environmental Risks - Because of unknown or unpredictable environmental factors such as soil
contamination (LA Maintenance Facility) and marine concerns (Niantic Bridge), as well as the time
required to obtain environmental approvals, environmental risks were elevated on a number of projects.

Schedule Slippage - The schedules for a number of projects is very tight, with little or no buffer. In fact
for a number of projects (e.g. Construction of the Los Angeles Maintenance Facility), Amtrak paid
acceleration premiums in order to have a chance of completing the project within the grant deadline.




                                                 Page 2
Technological Risks – Of the nine projects that were reviewed, significant technological risks were
identified on three, including the Niantic Bridge Replacement project and both of the Positive Train
Control (PTC) projects. The risk on the Niantic Bridge project results from utilization of construction
means and methods that had not been previously used by Amtrak while the risks associated with the PTC
projects stems from the immaturity of aspects of the PTC technology itself.

Risk Associated With The February 11, 2010 Deadline – However, neither the project managers nor
Amtrak's executives are in a position to mitigate the most significant risk to the program, which is that the
grant between the FRA and Amtrak requires that all projects be completed by February 17, 2011, and that
Amtrak must take extraordinary measures to meet this deadline. The Recovery Act itself states "... that
the Secretary shall take measures to ensure that projects funded under this heading shall be completed
within 2 years of enactment of this Act ...”. The March 19, 2009 grant agreement between Amtrak and
the FRA goes beyond this legislative requirement. This agreement not only requires that measures be
taken to complete projects within two years, but also requires Amtrak to apply for waivers only after
proving that “despite its best efforts" the project cannot be completed by February 17, 2011. The grant
agreement also requires that as part of its waiver application, Amtrak "...should identify the extraordinary
measures the Grantee has undertaken to meet the February 17, 2011 completion date..."

We believe reasonable measures should be taken to complete the projects before the deadline, but Amtrak
should not use extraordinary measures to do so. The grant deadline is creating additional risks on a
number of projects, risks that Amtrak has been mitigating through the use of extraordinary tactics that it
would under normal circumstances not have to use. In some instances Amtrak has proposed the use of
double and triple shifts for the duration of the project. Independent studies have concluded that
productivity will show significant degradation if this tactic is maintained for an extended period of time 1 .
In other instances, Amtrak management is faced with decisions to reduce project scope to accomplish less
than was originally planned in order to meet the deadline. In the case with the Niantic River Bridge
project, the project was split into two portions - one funded by ARRA and the other funded through other
sources.

The following examples demonstrate extraordinary measures taken to meet the grant deadline:

    1. Virtual Fence Project. This project was originally scoped to include virtual fencing at Amtrak
       facilities in Chicago, Seattle, Baltimore, and Washington. Because of time constraints associated
       with the grant deadline, both Chicago and Seattle facilities were removed from the scope. For the
       remaining scope, the project will only be completed into the test phase, and will not include
       implementation into operations. We are not aware of any project or extension that would take it
       beyond the testing or pilot phase.

    2. Sanford Florida Station Refurbishment. This project was originally scheduled to be completed
       before the grant deadline using a single shift. However, a series of legitimate delays not
       anticipated by Amtrak or the contractor forced Amtrak to request that the contractor take all
       necessary actions to bring the projects back on schedule, instead of allowing the project to
       continue beyond February 17, 2011. The contractor will use overtime, extended shifts, or
       additional shifts to complete the work on time. Amtrak incur additional costs as well as an
       acceleration premium for the work.

1
 Impact of Shift Work on Labor Productivity for Labor Intensive Contractor – Journal of Construction Engineering
and Management © ASCE / March 2008




                                                    Page 3
The need to meet the February 17, 2011 deadline is also impacting the ARRA Engineering decisions on
project selection. We have noted, for instance, that new projects are still being introduced into the ARRA
pipeline, while projects that have been planned since the beginning are being dropped for the exclusive
reason that they cannot be completed within the grant deadline. We believe that the late identification of
substitute projects may result in spending time and resources on lower-priority initiatives. This in turn
will not only yield fewer benefits than the originally selected projects, but the shuffling of projects will
itself result in an increase in waste, inefficiency, undue haste and perhaps even impact the quality of the
finished product.

Risk Assessment Results

During the audit, we evaluated 62 risk elements. Each was given a risk score of 1 to 5, denoting the level
of risk that exists against each element on the project. A score of 1 represented a low risk for that element
and a score of 5 represented a high risk. If any of the 62 risk elements received a score exceeding 3.5, it
was given a “watch item” designation, meaning that this element could compromise aspects of the project
or program if not actively managed.

Table 1 shows the distribution of watch item designators (i.e. risk elements with a score of 3.5. or higher)
across projects and risk categories.




                                                  Page 4
                                                                              Risk Categories and Number of Watch Items Within Each
              Program
                                                                                                             Size &                                     Mgmt &
                                     Acquisition   Environment     Schedule      Objectives   Technology                 Financial    Human Capital                  Fraud   TOTAL
                                                                                                           Complexity                                 Organization

 Niantic River Bridge Replacement        1              4             0              1            1            3            0               0              0           0      10

 Positive Train Control - ITCS           3              1             1              1            3            0            1              0               0           0      10

 Positive Train Control - ACESS -
                                         3              0             1              1            2            1            1              1               0           0      10
 NEC
 Lamokin Frequency Converter
                                         2              1             4              1            0            0            0              0               0           1       9
 Replacement

 Los Angeles Maintenance Facility        1             3              1              1            0            1            1              0               0          0        8

 Hialeah Maintenance Facility            1              1             1              1            0            1            0               0              0           0       5

 New York Standpipe                      0              0             0              1            0            0            0              2               1          0        4

 Platform Lighting                       1              0             0              0            0            0            0              0               0           0       1

 Emergency Backup Power - Stations       0              0             0              0            0            0            0              0               0          0        0

                TOTAL                    12            10             8              7            6            6            3               3              1           1

                                                            Table 1 – Summary of Watch Item Items, By Project and Risk Category
NOTES:

1.   For each project, a total of 62 detailed risk elements were examined within the 10 risk categories. Risk scores were formulated for each risk element, ranging from 1 (low
     risk) through 5 (very high risk). A risk score of 3.5 or higher on any of the 62 risk elements evaluated indicated significant risk, resulting in a “watch item”.

2.   The risks scores for each element were derived through consultation and cooperation with the respective project managers and their associated subject matter experts.

3.   Example: Risk assessment of the Niantic River Bridge project resulted in scores of 3.5 or higher on four risk elements associated with environmental issues surrounding
     the project. Each of these was captured on this table as a “watch item”.

4.   57 items of significant risk were documented out of a potential of 558 risk items (62 risk areas * 9 projects examined)

5.   Key areas of concern were a) the ability to secure materials and equipment on time; b) the schedule constraint c) environmental issues associated with some projects d)
     technological concerns associated with some projects.

6.   Of the nine projects examined, five showed a significant number of elevated risk items. The project managers will need to focus their efforts toward keeping these risk
     areas under control.




                                                                                                Page 5
Assessment of Projects by Risk Area

This risk assessment evaluated each of the nine projects against ten areas of potential risk. The ten areas
were each broken into a number of risk elements ranging in number from three to eight, depending on the
risk area in question. Our general findings for each risk area are described below.

    1. Acquisition Risks: In evaluating risks associated with acquisition, we considered how difficult
       it would be to acquire the necessary materials and equipment in a time frame that would allow the
       project to be completed on schedule.

        Most project teams had concerns regarding the duration of the procurement process and the
        historical timeliness of completion and delivery. Given the rigid due dates, they felt that this
        would impede timely completion of the projects. Moreover, most felt powerless to do anything
        about it.

        Of the nine projects that were assessed, there were a total of 12 watch items relating to various
        aspects of acquisition.

    2. Environmental Risks: Environmental risks are those risks associated with the environmental
       conditions in which the project must be executed. This can include unknown sub-grade
       conditions, potential site contamination, exceptionally volatile weather in the vicinity of the
       project, and similar environmental concerns.

        High environmental risks were mostly associated with the Niantic River Bridge project and the
        LA Maintenance Facility Project. For the Niantic River Bridge, most of the concern surrounds
        the work that must be done underwater. The work requires approval from the US Coast Guard,
        which could in turn consume time and financial resources. For the LA Maintenance Facility
        project, the work is being performed on a site that is generally known to have environmental
        problems such as soil contamination, and when excavation begins, these problems may be
        uncovered, potentially delaying and adding costs to the project. In addition to this, the work
        environment is physically constrained, limiting the number of people that can work at the site at
        one time, which could add costs to the project.

        Of the nine projects assessed there were a total of 10 watch items relating to various aspects of
        environmental risk.

    3. Schedule Risks: Schedule risk is the risk that the project or program will not be able to be
       completed within the required time frame, in this case by Feb 17, 2011.

        As mentioned previously, many projects had concerns about being able to complete delivery
        within the grant time frames and had doubts whether sufficient skilled resources could be
        mustered in time. The team responsible for the Lamokin Frequency Converter Replacement was
        especially concerned because Amtrak has had no recent experience with this type of project.

        Of the nine projects assessed there were a total of 8 watch items relating to various aspects of
        schedule risk.




                                                 Page 6
    4. Technology Risks: This represents the level of risk associated with the relative maturity of the
       technologies being used.

        Both of the Positive Train Control (PTC) projects have some technological aspects that the
        project teams consider as high risk. The major risks are associated with the lack of maturity of
        the technologies being utilized, as well as the complexity of the technology itself.

        Of the nine projects assessed there were a total of 6 watch items relating to various aspects of
        technological risk.

    5. Objectives Risks: These are associated with not being able to meet the project’s objectives.
       The majority of project teams considered the risk of not being able to meet ARRA’s schedule
       objectives (i.e. completion by Feb 17, 2011) to be very high.

        Of the nine projects assessed there were a total of 7 watch items relating to various aspects of risk
        relating to the ability to meet the projects’ objectives.

    6. Size and Complexity Risks: The Niantic River Bridge replacement is the largest and most
       complex project of Amtrak’s stimulus initiatives, and the project team’s risk score reflects this.
       The LA Maintenance Facility has risks associated with dependencies on Utility companies that
       have not responded to their service requests.

        Of the nine projects assessed, there were a total of 6 watch items relating to various aspects of the
        projects’ size and complexity.

    7. Remaining four risk areas: Assessment of the remaining risk areas identified a total of eight
       watch item items, distributed as follows:

            a. Financial Risk (risk of not completing the program within the allotted budget) – 3 watch
               items.

            b. Human Capital Risk (risk of not being able to acquire skilled human resources in
               sufficient numbers – 3 watch items.

            c. Management and Organizational Risk (clarity of scope, direction, procedures, controls, or
               operating conditions) – 1 watch item.

            d. Fraud: (concerns regarding higher-than-average risk of fraud or theft) – 1 watch item.

        With few exceptions, the project teams’ concerns in these risk areas were relatively low in both
        significance and relative impact on the projects themselves.

Amtrak’s Risk and Mitigation Approach

This section describes both the risks associated with each of the nine projects evaluated as well as the risk
mitigation approaches being implemented by the project management team. In some instances the OIG
believed that additional measures should be explored to further assist in the risk management effort.
Those measures are also described in this section.




                                                  Page 7
                         Niantic River Bridge Replacement (PRJ29116002)

         Budget:    $60,000,000 (funded through ARRA - total project budget is $104 million)
          Status:   All major contracts in place, project is in progress
     Description:   This is the largest of Amtrak’s ARRA-funded projects. It entails construction of a new
                    bascule lift bridge and a new railroad alignment adjacent to the existing 102 year old
                    bridge. The new bridge will be a 3 span bridge with a 142 feet long bascule lift span with
                    a total bridge length of 373 feet. This new bridge will be equipped with modern
                    machinery and control systems. To accommodate the new track alignment a 2,200 feet
                    retaining wall and 5,000 lineal feet of track and catenary will be constructed.
                    Improvements to the navigation channel, restoration of public walkway and beach and
                    removal of the old bridge are also planned. The project not only allows Amtrak to
                    significantly increase the speed of Acela trains over the span, but is recognized as being
                    of benefit to both the local community in general and to the boating community in
                    particular.


Several risk factors have been identified:

1)     Environment – There are several environmental factors associated with this project that increase the
       inherent risk:

       a. The project is located in an area that will result in higher-than-average time lost due to weather-
          related factors. The project team is managing this by building weather-related contingencies
          into the project schedule.

       b. The site characteristics are complex. As an example, in order to complete the project, the local
          beach, which is in close proximity, must be closed down for a period of time and the beach
          rebuilt once the work is complete. The project team is managing this through close cooperation
          and communication with the local community as well as through frequent and proactive
          communication with environmental officials.

       c. A significant portion of this project will require work in sub-water conditions, increasing the
          number of potential environmental and technological unknowns. To address this risk, the
          project management team will be teaming up with Mueser Rutledge Consulting Engineers
          (MRCE), one of the world’s leading geo-technical firms, as well as with a number of marine
          environmental experts. By taking this approach, Amtrak is compensating for a lack of internal
          expertise in these technical areas.

2)     Size and complexity – In addition to the extensive resources being dedicated to this project, there is
       an unusually large number of stakeholders involved, both internal to Amtrak and external. This
       increases the need for a high level of coordination and proactive communication practices in order
       to maintain the ongoing support for all stakeholders.

       Mitigation: To address the risks associated with the size and complexity of the project, the project
       team will:




                                                   Page 8
     a. Develop a schedule that includes not only the project teams’ work, but also the work and
        deliverables from other departments within Amtrak, all vendors that will be involved with the
        project (over 30 vendors will contribute), and work and decision points from external
        stakeholders. If done properly will minimize the chances of key items being forgotten or
        ignored.

     b. Develop and implement a community outreach program that keeps the local community both
        involved and in step with the project. If done properly, this approach will not only foster
        community support but also help to identify community issues early on in the project that, if not
        addressed, could cause significant cost and delays down the road. Part of the community
        outreach program is the development of a common-access project information web site.

     Other Mitigation Tactics That Could Be Explored

     Develop a detailed communication and reporting plan. This plan would take the form of a
     document that would describe the communication objectives, each type of report or communication
     to be issued, the format and frequency, and a feedback mechanism. A communication plan of this
     type would improve the likelihood of stakeholder support remaining constant through the project
     life cycle. This mitigation tactic has since been implemented.

3)   Acquisition – Municipal authorities have expressed concern about the number railroad crossings
     that need to take place to ship materials and equipment to the job site, and have asked Amtrak to
     explore alternative means of transport. In response, Amtrak has arranged for materials to be
     dropped off each night at the train crossing instead of the job site. The materials and equipment are
     then to be delivered by train to the job site. Note that this process has not been tried by Amtrak in
     the past. It is a first, and as such will likely experience some logistical issues The project will
     experience issues if / when this process breaks down for any length of time.

     Mitigation: To address the supply chain management risk, the Amtrak Project Manager is working
     regularly with both URS Corporation (the Construction Management contractor) and the General
     Contractor to fine-tune the process to the extent possible, recognizing that the risk will continue
     until all material has been acquired.

4)   Human capital – Although human capital has not been identified as a watch item, the project team
     still has concerns that skilled personnel in some crafts may become scarce as ARRA projects
     (Amtrak and non-Amtrak) accelerate across the board.

     Mitigation: To address the potential human resource issues, both Amtrak and URS have initiated
     an apprenticeship program for key skill sets. Although this will support Amtrak’s succession
     planning needs, it is unclear how effective this approach will be, given the deadlines imposed by
     the grant agreement between Amtrak and the FRA.




                                                Page 9
                    Positive Train Control – ITCS - Michigan Line (PRJ29112131)

       Budget:     $25,000,000
        Status:    Contract has been issued to General Electric
   Description:    PTC is technology that enforces positive train stops without human intervention. A
                   federal mandate requires the installation of PTC by 2015 to make rail services as safe as
                   technology can support. The PTC system is already installed on 52 miles of track along
                   the Michigan line. The project is to extend it to the remaining 46 miles of track.



The key risks associated with this project include:

    1. Acquisition: The project has several acquisition-related concerns:

        a. Additional signaling units (known as signal huts) will be needed for this project. The lead
           times are significant and the design work had not been completed when this assessment took
           place. The team had concerns over the delivery time frame, especially when considering that
           the demand for signal huts increases in proportion to the volume of work on the tracks.

            Mitigation: To the extent practicable, Amtrak will ensure that related communication
            circuits, breakers, relays, and other materials commonly used on signal huts are kept in stock.
            Additionally, Amtrak is meeting with GE on a bi-weekly basis to get a head-start on the
            material requirements.

        b. General Electric owns the technology associated with this type of PTC system, and the work
           was sole-sourced to that company. However, the contract negotiations were time-consuming
           and resulted in start delays, putting additional pressure on the ability to meet the ARRA
           completion deadline.

            Mitigation: The appropriate completion deadlines have been integrated into the contractual
            agreement with GE.

        c. The team is concerned that products that are normally purchased from foreign countries will
           be disallowed under the Buy America provisions of the ARRA legislation. A number of
           products are normally purchased from Canada and it was not clear what US-based companies
           could quickly provide equivalent products.

    2. Schedule: The project is concerned that it may not be able to complete the work before the
       established grant deadline.

        Mitigation: General Electric will be the prime contractor for this project, since GE had
        previously designed and implemented the PTC system on other portions of the Michigan line.
        Amtrak has built implementation deadlines into its contract with GE as a means of mitigating this
        risk.

        Amtrak is also reviewing in detail GE’s implementation plans and schedules to ensure that they




                                                  Page 10
        integrate effectively into Amtrak’s other work schedules along the Michigan Line. This advance
        effort would minimize any possible delays that arise due to schedule conflicts.

    3. Technology: There are risks associated with implementing a technology that is not mature.
       Although this type of PTC system has been in operation along parts of the Michigan line for a
       number of years, Amtrak has never been fully satisfied with its performance. Additionally,
       Amtrak is the only North American organization that has implemented this type of PTC system in
       the field.

        Mitigation: At the time that the field work for this assessment was conducted, the project
        manager intended to build performance clauses into the GE contract as a means of satisfying the
        existing performance issues. However, the project team now believes that improvements in the
        data radio network have made this approach unnecessary.

                       Positive Train Control – ACSES - NEC (PRJ29112113)

       Budget:    $35,000,000
        Status:   Behind schedule but in progress
   Description:   The Advance Civil Speed Enforcement System (ACSES) PTC system has been in
                  operation in the Northeast Corridor for a number of years (since 1996) but is not
                  installed on all NEC track. The objective of this program is to extend installation of the
                  ACSES system to cover all Amtrak-owned track miles on the NEC.

Although most of the project work is well understood, there are several factors that increase the project
risk:

    1. Technology: A new radio and communication system that uses 220 megahertz channels is being
       developed for use with the ACSES system. This new system has not been fully tested, which
       introduces a certain measure of technological and financial risk to the project.

        Mitigation: If the new radio equipment acquisition and testing begins to lag behind the rest of the
        installation, all viable work and installation will be completed first, with the radio equipment
        being plugged in later. The project team has since chosen to create a much simpler specification
        based on current off-the-shelf products, thus significantly reducing the associated risk.

    2. Schedule: In the past, PTC installation has always required more time than anticipated. The
       Amtrak management team acknowledges that it will be very difficult to complete the entire job
       within the grant deadlines, especially given the personnel shortages and technology change
       described above.

        Mitigation: Amtrak management intends to mitigate this risk by:

            a. Assigning dedicated construction gangs to the project, thus increasing productivity as
               work progresses.




                                                 Page 11
            b. Building much more detail into the project schedule than has been done in the past. This
               will help increase the project manager and supervisors’ control over the project and
               detect issues early on.


        Other Mitigation Tactics That Could Be Explored

        Other tactics that should be considered are:

            a. Weekly tracking and update of project schedules, to assess issues early.

            b. Frequent reviews between the project manager and field foremen and supervisors.

            c. Full coordination between the work to be accomplished and the track outage schedules.

    3. Human Capital: There is a shortage of skilled personnel capable of performing the work quickly
       and efficiently.

        Mitigation: When this project began, Amtrak was significantly understaffed for the work to be
        done and needed to increase related staff levels by 25%. The new personnel require training and
        field expertise, so Amtrak is mitigating the staffing risks by teaming the new hires with trained,
        experienced personnel. This is a reasonable approach and will help in making sure that the
        quality of work remains high.

        Other Mitigation Tactics That Could Be Explored

        Another tactic that should be considered as well is the development of an installation procedures
        guide, which would not only improve procedural consistency but would also serve to improve the
        learning curve for new personnel starting on the job.

                  Lamokin Frequency Converter Replacement (PRJ29116023)

       Budget:    $60,000,000
        Status:   Project in progress, but late due to delays in state historical preservation approvals
   Description:   Rehabilitate the 3 Rotary Frequency Converters at Lamokin - install new stator coils,
                  rewind 23 motor rotor coils and install new collector rings, and reassemble the motor.
                  Purchase and install six new 20MVA transformers. Purchase and install 14 ea 13.2kV
                  generator and bus tie breakers. Purchase and replace all protective relay, control and
                  power cables and control systems including Remote Terminal Units(RTU). Replace
                  major components at Lamokin’s 60Hz substation, which feeds the rotary converters.



Amtrak management is familiar with most of the components and key tasks associated with this
project, but it has not actually implemented a project of this type in recent years. Key risk factors
include:




                                                 Page 12
1. Schedule – Several factors add to the schedule risk:
   a. There is an extensive amount of work to be accomplished in a constrained time frame, with
      the last of six transformers being scheduled for delivery in November, 2010 – only three
      months before the grant deadline.

     b. Deliveries of this type of item have a history of being late. However, scheduled deliveries are
        currently ahead of schedule.

     c. Because Amtrak has not recently executed a project of this type, there is a risk that the
        schedule being established for the project may not be accurate.

     Mitigation: The project team has not proposed any tactics to mitigate the schedule risk.

     Other Mitigation Tactics That Could Be Explored

     a. The current project schedules are Excel-based. While this is a fine tool for some applications,
        it is not the right tool to use on a $60 million project that is seriously time-constrained. In
        order to build proper work breakdown structures, understand detailed task dependencies up
        front, and manage progress effectively on a day-to-day basis, a project scheduling / tracking /
        reporting tool such as Primavera or MS Project should be used. If the expertise to use such a
        tool effectively does not exist within the project team, then outside expertise should be
        purchased for the duration of the project. It would be money well spent. This tactic has since
        been implemented.

     b. Since Amtrak Engineering has not executed this type of project in recent years, an external
        subject matter expert should be engaged on a consulting basis. This expert’s role would be to
        help develop detailed schedules, providing expertise on duration, staffing requirements, lead
        times, pitfalls, and other factors that can impact the project. The subject matter expert would
        also be responsible to ensure that no significant details have been omitted from the resulting
        project schedules.

                            Los Angeles Maintenance Facility (PRJ29116045)

         Budget:    $30,000,000
          Status:   Contract issued, estimated $5 million overrun
     Description:   This project will see the construction of a railroad car maintenance facility geared
                    toward servicing Superliners, Viewliners, and Amfleet II fleets.

Several associated risk items have been identified:

1.    Acquisitions Risks – There are a number of long lead items, such as luggage racks for rolling stock
      or prefabricated steel for bridges that historically have taken longer to procure and receive than
      planned.




                                                   Page 13
     Mitigation: Amtrak is placing focus on the timely review and approval of shop drawings, to
     minimize delays in the procurement of long lead items. Regardless, the project has experienced
     some schedule slippage due to shop drawing review and changes. Schedule workarounds and
     acceleration change orders will be necessary due to the approval of equipment shop drawings and
     acquisition being on the project critical path. The schedule workarounds and project acceleration to
     meet the grant deadline will result in additional project cost.

2. Schedule Risk – Historically, projects of this nature have taken longer to execute than originally
   planned. In this instance, the environmental unknowns and constraints will increase the schedule risk,
   explaining the team’s concern over completing the project within the ARRA-imposed deadlines.

    Mitigation: The contractor has agreed to complete the project within the grant deadline. In order to
    mitigate the schedule risks, the project will implement overtime, extended shifts, or multiple shifts as
    needed in order to complete the project on time. This will likely increase the overall project costs,
    reduce productivity, and result in waste.

3. Environmental Risk – The project is operating under space-constrained conditions, with other
   construction taking place in close proximity. Additionally, the site is known to have discovered
   instances of soil contamination in the past, which has the potential to impact construction on this
   project.

    Mitigation:

    a. The project team is coordinating its construction schedules with both other construction teams
       and with the Mechanical Department (which will be the user of the new facility).

    b. Cleanup of contaminated soil is being factored into the project schedules.

4. Financial Risk – The project’s budget is already understood by Amtrak management to be inadequate,
   with the expectation that the budget must be raised to approximately $33 million. The initial
   estimates from which the original budget was derived were insufficiently detailed and did not take
   into consideration the following factors:

    a. Higher labor costs in the Los Angeles region,

    b. Additional work and contingency planning required to address site-based environmental issues,

    c. Constrained working space on the building site, which will elevate some of the project labor costs

    Mitigation: A more detailed estimate has already been established, resulting in an assessment that the
    budget needs to be increased to $33 million.

    Other Mitigation Tactics That Could Be Explored

    Aside from increasing the budget, Amtrak management should consider the following additional
    tactics:




                                                 Page 14
      a. Building detailed, cost-loaded schedules that validate the budget increase.
      b. Setting aside an unallocated portion of the budget to serve as a contingency in the event of
         unforeseen costs or cost increases.

                           Hialeah Maintenance Facility (PRJ29110027)

       Budget:     $30,000,000
        Status:    Contract issued, estimated $5 million overrun
   Description:    This project will see the construction of a second railroad car maintenance facility
                   geared toward servicing Superliners, Viewliners, and Amfleet II fleets. While the facility
                   itself will be of similar design, capabilities, and size as the facility being built in Los
                   Angeles, the site environment is quite different, resulting in a significantly different set
                   of risks.

                   The Engineering department has combined this project with Project # 29116066 –
                   Implementation of a 480KV transmission line on the same site. The project manager
                   feels that the combined budget of $30 million will be sufficient to accommodate both
                   jobs, including contingency.



Risk factors include:

    1. Environmental. There is possible soil and water contamination on the site.

        Mitigation: The project has implemented a set of procedures to handle the identification and
        removal of soil and water contamination as quickly as possible.

    2. Schedule: The time frame to complete the job is very tight.

        Mitigation: The general contractor agreed to a schedule that provides for a February 2011
        completion. While this is a positive development, the nature of a construction project of this
        size increases the likelihood that unforeseen conditions will occur. The project team is
        prepared to discuss acceleration methods with the General Contractor should unforeseen
        conditions during construction delay the project. Schedule workarounds after contract award
        to the general contractor will require a change order and will increase the overall cost of the
        project.




                                                   Page 15
                  New York Tunnel Standpipe Installation (PRJ29112114)

       Budget:    $22,600,000
        Status:   Contract awarded - in progress but behind schedule.
   Description:   This project adds an air monitoring system to the existing New York tunnel standpipe
                  system, which incorporates the addition of air-vacuum isolation valves with fail safe
                  actuators in the tunnels. It also includes the installation of standpipe deluge valves, air
                  compressors, associated piping, electrical power and controls to provide a fully operable
                  fire standpipe system. The project also includes bonding and grounding installation for
                  the standpipe system.

In general, the project management team is comfortable with the job, the quality of the estimates, and
their chances of completing the job within the ARRA time frame. We were told that the chosen vendor
has performed similar work for Amtrak and that Amtrak has been satisfied with the vendor’s
performance. The type of work being performed is not new to Amtrak, having had a long history of
similar projects being successfully executed in the past.

   1. Human Capital: The only potentially high risk uncovered is the availability of skilled personnel
      to perform the work. We were informed that there is a significant shortage of force account
      personnel available for the job, and when Amtrak trains new personnel other railroads recruit
      them.

       Mitigation: Amtrak intends to implement a focused hiring program in order to close this skills
       gap.

                                Platform Lighting (PRJ29112117)


       Budget:    $10,000,000
        Status:   Contract awarded, project is in progress
   Description:   This project will see the installation of new lighting on platforms at stations along the
                  NEC. Stations include Washington Union Station, Baltimore Penn Station, Philadelphia
                  30th Street Station, Providence, and Route 128.

The OIG chose to assess the risk of this project because of performance issues with previous platform
lighting efforts. However, our assessment showed a project that has vey little inherent risk because:

   1. The current cost estimates of $6.6 million are significantly lower than the project’s budget of $10
      million.

   2. Past problems have been virtually eradicated through extensive use of new designs on platforms
      that encounter a variety of environmental conditions. Basically, the new designs have been vetted
      and tested in the field, with successful results. The same design is to be used for this project.




                                                 Page 16
    3. The construction and setup are relatively simple. Although the parallel platform refurbishment
       work taking place in some locations may complicate the effort, the project team firmly believes
       that the grant deadline will not be a factor.

    4. Design specifications are already 100% complete on three of the five stations. The remaining
       station designs will have the same basis as those already completed.

                         Emergency Backup Power – Stations (PRJ29112118)

       Budget:     $4,030,000
        Status:    Currently in the design phase
   Description:    Allow for continuation of train and passenger movement and for personnel to fully
                   operate in the event the station loses power. Back up system would
                   add redundancy and includes emergency generation, UPS and improved electrical
                   wiring. Stations include Washington Union Station, Baltimore Penn Station, 30th Street
                   Philadelphia, and Providence, Rhode Island.


No inherent risks were identified by the project team.



                                       CONCLUSIONS

During the course of this risk assessment, it became evident that the deadline of February 17, 2011 was an
overriding factor in a number of the project decisions. Management was faced with decisions such as:

a. What projects to include or exclude from the ARRA program,

b. What vendors to include or exclude from competition, depending on their willingness to commit to
   the completion deadline,

c. The decision to introduce double and triple shifts for extended periods of time, regardless of the
   impact on productivity or potential waste.

The grant agreement dated March 19, 2009 and amended on July 14, 2009 between Amtrak and the FRA
allows Amtrak to apply for a waiver of the February 17, 2011 deadline on projects that cannot be
completed by that date. However, as part of its application, Amtrak is expected to demonstrate that it has
taken extraordinary measures to meet the deadline.

In our opinion, a number of the elevated risks that these programs are experiencing have come into
existence as the unintended consequence of the hard deadline imposed by the grant agreement. This is
particularly true for the risks associated with acquisition, schedule, and environment, the majority of
which are either driven or heightened as a result of the required completion date.

The OIG agrees that reasonable measures should be taken to complete projects within the grant deadline,
provided that completion is achievable through the utilization of methods and procedures normally used




                                                 Page 17
in the industry. Reasonable measures are those practices that one would expect to use under normal
operating conditions. They follow due process in each step along the way and due diligence with regard
to reasonable follow up and care that needs to be exercised. In this case that would include items such as
normal shifts with a manageable amount of overtime, quantities of track outages that would minimize
impacts to on-time performance, a signed contract that respects the grant provisions, and schedule
contingencies that allow unplanned time for weather or other unforeseen circumstances. Because the
grant terms identify measures that are generally consistent with prudent business practices, the term
extraordinary measure, which is not defined, must therefore include actions outside of normal practices
that would adversely impact productivity, increase the potential for waste or inefficiency, negatively
impact the quality of the final products, or extraordinarily impact the smooth operation of the railroad.



                                RECOMMENDATIONS
We recommend that Amtrak:

1. Avoid taking any extraordinary measures that can significantly impact productivity, increase the
   potential for waste, negatively impact the quality of the final products, or extraordinarily impact the
   smooth operation of the railroad.

2. Apply to the FRA to amend the grant provisions to ensure a balance between spending taxpayer funds
   in a timely manner and achieving project objectives, without actions that could increase the potential
   for waste or inefficiencies.

3. Apply to the FRA for a grant waiver in instances where reasonable measures failed to bring the
   project within the grant deadline.




                                                Page 18
      MANAGEMENT’S COMMENTS AND OIG RESPONSE

We provided Amtrak with a draft report on April 30, 2010 and received a response on May 11, 2010.
Management’s response is included in its entirety in the Appendix to this report. Management agrees with
the report’s findings and concurred with all three recommendations.

We consider management’s comments to be responsive to the recommendations.




Audit Staff - Dominic Pinto
Consultant - Ken Elias




                                               Page 19
            Overview of the Engineering / Construction Process
                               EXHIBIT A

In order to understand the risk context, it’s important to understand how Amtrak’s Engineering /
Construction process helps to mitigate risk. For the majority of construction projects, the following
sequence of events normally takes place.

    1. Architectural design is completed to the 30% level.
    2. 30% design is reviewed and marked up
    3. Design is completed to the 60% level
    4. 60% design is reviewed and marked up
    5. Design is completed to the 90% level
    6. 90% design is reviewed and marked up
    7. 100% design is completed, reviewed, and finalized. Construction is authorized to begin.
    8. Bill of Materials is finalized, with quantities and estimated costs
    9. “Schedule of Values” is issued, itemizing the deliverables and sequence of deliveries.
    10. Construction and construction management procedures are documented.
    11. Construction takes place. During this construction, adjustments are often made for unknown /
        unexpected field conditions, weather, and fine details not itemized in the design specifications
        (e.g. specific building materials).
    12. Tasks and progress are tracked either daily or weekly
    13. Inspections and quality assessments are made for each key component.
    14. Substantial completion is achieved, with a list of outstanding items


NOTE: For projects known as “design / build” projects, steps 3 – 7 above are commonly integrated into a
single step, with a final review taking place upon completion of 100% design.




                                                 Page 20
                             SCOPE & METHODOLOGY
                                   EXHIBIT B

We conducted this performance audit from September, 2009 to April, 2010 in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. The following methodology was used in conducting this audit.

We selected nine of Engineering’s high-investment projects for our risk assessment, which centered on an
examination of each program’s inherent risks. The selection was based on our initial assessment of those
projects we considered to have the highest risk potential. In conducting this audit, we interviewed Amtrak
Engineering personnel who were familiar with both the program details and execution environment. We
then evaluated each program against categories and elements of program risk. We reviewed the risk
elements in each project and discussed the relative risk weighting of each one. We also identified a
mitigation approach for those items identified as having potential high risk. For each project, we reviewed
the adequacy of the project managers’ risk management approach and put forward supplementary
suggestions where we felt that additional measures would help to further mitigate the associated risks.

In preparation for the risk assessment, we developed an Excel-based software template that identified 10
categories of risk containing 62 risk elements against which each project was examined. Using this
template, we evaluated the following ten aspects of project risk:

        1. Acquisition – How difficult is it to acquire the materials and equipment needed for this
            project in a time frame that will allow the project to be completed within the ARRA time
            constraints?
        2. Environment – Are there environmental factors such as exceptionally volatile weather, site
            contamination, sub-grade conditions, or institutional issues that increase the unknowns under
            which the project must operate?
        3. Schedule – What are the risks that the project or program will not be completely executed
            with high quality within the ARRA time constraints?
        4. Objectives – How clear are the project scope, objectives, measurement criteria, and
            associated performance metrics? Additionally, what are the risks that the program will not be
            able to achieve the associated ARRA objectives?
        5. Technology – How mature and well developed are the technologies, methods and procedures,
            and concepts being used on the project?
        6. Size / Complexity – Is the size and / or complexity of the project such that unknown factors
            or combination of factors serve to elevate the project’s inherent risks?
        7. Financial – what is the risk that the program will not be completely executed with high
            quality within the allocated budget?
        8. Human Capital – how difficult is it to acquire and retain adequate quantities of skilled
            personnel for all aspects of this project or program?
        9. Management and Organization – how well defined are the project organization, roles &
            responsibilities, and program controls? What is the potential for political or organizational
            disruption of the project’s progress?
        10. Fraud – Are there areas of the project or program where the fraud potential is historically
            elevated?


                                                Page 21
We conducted a series of risk reviews with Engineering. Each review was attended by at least two
Engineering subject matter experts, one of which was always the corresponding project or program
manager. The focus of our reviews was to assess each risk category and element within the risk
assessment, determine the relative risk weighting of each, and where necessary identify a mitigation
approach for those items identified as having potential high risk.

The risk assessment effort was based upon the knowledge of the subject matter experts and the questions
and challenges put forth by the OIG. At the start of each session the OIG emphasized the importance of
extracting the high-risk items so that those risks could be shared appropriately and mitigated effectively.
The work session results were shared with the participants for review, comment, and consensus.

The risk rankings themselves were defined as follows:

        1 = Risk level is negligible (no action needed)
        2 = Risk level is low (but should still be monitored)
        3 = Normal risk (mitigation plan may be needed)
        4 = Elevated risk (an approved mitigation plan is needed)
        5 = Very high risk (an alternative approach should be considered)




                                                Page 22
APPENDIX




  Page 23
